fe
|

COCKLE

Legal Briefs

Est. 1923,

E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1539

DANIEL RIVAS-VILLEGAS,
Petitioner,
Vv.
RAMON CORTESLUNA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 8695 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of June, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
Ae netics, | RENEE J. GOSS onsme| Aerze. 0 * Baca Qudraw- A. Gh,

‘My Comm. Exp. September 5, 2023
Notary Public Affiant
y 065
